No.

lln

tbe $upreme @ourt of tbe @niteD

btates

Jeuns MILLS,
Petitioner,
v.

Ctry on CovrNA, Kru RaNny

AND

TpnnaNcp HANou,
Respondents.

On Petition for a Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE
I hereby certify that on this 30th day of August 2019, I caused three copies
of the PETITION FOR WRIT OF CERTIORARI to be served on the counsel
of record, listed below, via e-mail and first-class mail, postage prepaid to:

Mildred K. O'Linn, Esq.
mko@manningllp. com : dxf@manningllp. com
Tony M. Sain, Esq.
t m s@m annin gllp. c o m : it c@m annin el Ip. c o m : s.i r @m annin sll p. c o m
Andrea K. Kornblau, Esq.
akk@manninellp.com; axa@manninsllp.com;
Trisha E. Newman, Esq.
ten@manninsllp.com; Isl@manninellp.com
MANNING & KASS ELLROD, RAMIREZ, TRESTER LLP
801 S. Figueroa St., 15th Floor
Los Angeles, CA 90017-3012
Telephone: (213) 624-6900
Facsimile: (213) 624-6999

I hereby certify that all parties required to be served have been
served. The remaining parties are unrepresented by counsel and have
not participated in this action and were therefore not served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on August 30, 2019
RNANDO MNRCANO

